                                                 NATIONAL SCIENCE FOUNDATION 

                                                  OFFICE OF INSPECTOR GENERAL 

                                                    OFFICE OF INVESTIGATIONS 


                                           CLOSEOUT MEMORANDUM

Case Number: 109080048                                                                      Page 1 of 1



       We conducted an investigative review of an institution l with an NSF award2 with an annual
       budget greater than $200,000 and substantial participant support costs. The review found no
       evidence of fraud or misappropriation of grant funds but it was noted that the institution has
       some questionable administrative and financial practices. A letter will be forwarded notifying
       the inStitution of issues and concerns found. There are no further issues to pursue in this matter.. .
       No further action will be initiated.

       This case is closed.




   2
